Supreme Court, U.S.
FILED

MAR 1 7 2021
No.

OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

DANIEL J. HEFFLEY-PffOSE PETITIONER
vs.
KIMBERLY STEELE et. al. - RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORATI TO

UNITED STATES COURT OF ALLEALS FOR THE THIRD CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Daniel J. Heffley
6911 Perrysville Avenue
Pittsburgh, PA 15202
412-761-9939

received
MAY 2't 2021

QUESTIONS PRESENTED

1. Does the Federal court have an obligation to follow the spirit and letter of the ADA and ยง
504 of the Rehabilitation Act?
2. Does the failure of the lower courts, to accommodate the disabled Petitioner, raise to the
level of deliberate indifference and discriminatory intent?

LIST OF PARTIES

All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:
Kimberly Steele
Elisabeth Bennington, Esq.
Represented by E. Bennington
Deborah Witchel
Represented by Raymond Swan
Katherine Gibson
Represented by John DeMarco
Neil Rosenblum PhD
Represented by Anthony Williott
James Bozigar

Elizabeth Molnar, Esq.
Represented by David Haber & Amy Coco
Stephanie Muick, Esq.
Represented by Jessica Lucas & S. Jegasothy
Arnold Caplan, Esq.
Represented by James Schadel & Scott Eberle
William Clifford, Esq.
Represented by Charlene Seibert & Dennis Roman

RELATED CASES
Heffley v. Steele, et al. 17-1624
USCA Case: Heffley v. Steele, et al. 19-3446
Heffley v. Commonwealth, et al. 18-1150
USCA Case Heffley v. Commonwealth, et al. 20-1804

TABLE OF CONTENTS
OPINIONS BELOW

6

JURISDICTION

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

8

STATEMENT OF CASE

10

REASONS FOR GRANTING THE WRIT.

11

CONCLUSION

12

INDEX TO APPENDICES
APPENDIX A Opinion -Third Circuit of Appeals
APPENDIX B Opinion - Western District Court
APPENDIX C Motion - Appointment of Advisory Counsel
APPENDIX D Motion - Judicial Notice of Aphasia

TABLE OF AUTHORITIES CITED
CASES
NUMBER

PAGE

It is not reasonable for the court to demand the disabled litigant to sherardize and reference
that information being requested here.
Neither can the Petitioners duly appointed facilitator be expected to execute a search for
citations.

STATUTES AND RULES

Americans with Disabilities Act (ADA)
Sec. 504 of the 1973 Rehabilitation Act
Civil Rights Act of 1961
Parental Rights and Civil Rights as defined in the First, Fifth, Ninth and Fourteenth
Amendments

OTHER

United Nations Convention on the Rights of Persons with Disabilities Resolution Adopted by
the General Assembly
Various other International Treaties the United States is signatory to (yet to be defined)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgement below.

OPINIONS BELOW

The opinion of the United States court of appeals appears at Appendix A to the petition.

The opinion of the United States District Court appears at Appendix B to the petition.
Both Opinions speak to an academic review of the Petitioners Pleadings. This, not
withstanding that the Petitioner has clearly defined, tht he is not capable of execution
pleadings and understanding communications from the court unless provide with the
accommodation of an interpreter

JURISDICTION

The date on which the United States Court of Appeals decided my case was September 17,
2020

A timely petition for rehearing was denied by the United States Court of Appeals on the
following date: October 19, 2020

The jurisdiction of this Court is invoked under 28 U.S.C. ยง1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
42 USC ยง12132
The Americans with Disability Act (ADA)
Subject t the provisions of this subchapter, no qualified individual with a disability shall,
by reason of such disability, be excluded from participation in or be denied the benefits
of the services, programs, or activities of a public entity, or be subject to discrimination
by any such entity.
42 USC ยง12133
The remedies, procedures, and rights set forth in ยง 505 of the Rehabilitation Act of
1973 (29 USC ยง 794a) shall be the remedies, Procedures, and rights this title provides
to any person alleging discrimination on the basis of disability in violation of ยง 202
(USC 12132).
29 U.S.C. ยง 794
The Rehabilitation Act, (ยง 504)
No otherwise qualified individual with a disability... shall, solely by reason of her or his
disability, be excluded from the participation in, be denied the benefits of, or be
subjected to discrimination under any program or activity receiving Federal financial
assistance....
29 U.S.C. ยง 794a(a)(2)
The remedies, procedures, and rights set forth in Title VI of the Civil Rights Act of 1964.
. .shall be available to any person aggrieved by any act or failure to act by any recipient
of Federal assistance or Federal provider of such assistance under section 504 of this
Act.
28 C.F.R. ยง 35.160(a)(1)
(1) A public entity shall take appropriate steps to ensure that communications with
applicants, participants, members of the public, and companions with disabilities are as
effective as communications with others.
28 C.F.R. ยง 35.160(b)
(1) A public entity shall furnish appropriate auxiliary aids and services where necessary
to afford individuals with disabilities, including applicants, participants, companions,
and members of the public, an equal opportunity to participate in, and enjoy the
benefits of, a service, program, or activity of a public entity.
(2) The type of auxiliary aid or service necessary to ensure effective communication will
vary in accordance with the method of communication used by the individual; the
nature, length, and complexity of the communication involved; and the context in

which the communication is taking place. In determining what types of auxiliary aids
and services are necessary, a public entity shall give primary consideration to the
requests of individuals with disabilities.
28 C.F.R. ยง35.164
This subpart does not require a public entity to take any action that it can demonstrate
would result in a fundamental alteration in the nature of a service, program or activity
or in undue financial and administrative burdens....
28 C.F.R. ยง35.104
Auxiliary aids and services includes - (1) Qualified interpreters on-site or through video
remote interpreting (VRI) services; notetakers; real-time computer-aided transcription
services; written materials; exchange of written notes....

STATEMENT OF THE CASE
Please Note: The Petitioner is communicating with the help of a facilitator. The
facilitator is not pro se but rather one who has domain knowledge of the
Petitioner and those issues that are important to him. While the Petitioner is
self-represented, he is disabled and incapable of reading, writing and executing
this and other documents in his hand. Fully intelligent the Petitioner can reason
when provided the opportunity and sufficient information on which to base his
decisions. In this the Petitioner is a disabled dependent.
This case is arguable in that the Western District failed to give any consideration whatsoever
to the National Rehabilitation Act and its prodigy the Americans with Disability Act.
Absent the protections provided in those statues, this Petitioner did not have a voice. The
Petitioner was denied Due Process.
Additionally, best practices recommended in case law with respect to indigent pro se litigants
have been completely ignored.
The Western District, rather applied academic standards and criteria to a pleading initiated by
a disabled man and executed with the help of his uncredentialed facilitator.
Appendix A is a careful, albeit undaunted by RA and ADA consideration.
Exhibit B is the 3rd Circuits endorsement of the Western District dismissal. However, there
does seem to be a hesitancy in the 3rd Circuits writing.
The petitioner's singular goal was to see his children.

REASONS FOR GRANTING THE PETITION

The Petitioner, Daniel J. Heffley, is disabled and as such is due certain considerations and
accommodation as outlined by the ADA and 504 of the Rehabilitation Act. The only
accommodation requested was labled Advisory Counsel. The Petitioner defined that term as
being anything from a clerk to a law school student.
Both lower courts applied professional standards to the various pleadings and did so exclusive
of the best practices generally recommended by other courts when dealing with indigent, pro
se litigants. Add to this mix the fact that the Petitioner is disabled.
We have reasoned that the lower courts may have considered that they have "allowed" the
Petitioner to utilize his Facilitator and that that is an accommodation. It is not an
accommodation as the Facilitator is provided by the statute not the authority of the court.
Further, the Facilitator is primarily the care giver and father of the Petitioner and not lettered
in the law.

CONCLUSION
The complaint filed in District Court cited violations of Civil, Parental and Disability Rights and
out lined the role that each defendant played in those infringements. However, due to
ineptness and inexperience the complaint did not survive the pleading stage.
A failure to communicate for sure but not on the part of the Petitioner and his Facilitator but
rather on the part of the court. The Petitioner simply needed a translator to accommodate
his disability of aphasia.
The court denied a pro bono attorney and opined at the expense that such an attorney would
represent. Readings have defined that if such an attorney was offered and refused the
litigant would not be given any quarter by the court therefore, we would have accepted such
an appointment. However, we did not request nor did we want a pro bono attorney.
Nowhere above can the Petitioner and his Facilitator see where he is to place a "Prayer of
Relief."
The desired outcome is:
โข

That this court recognize that the lower court could have and should have provided
the smallest of accommodations in terms of an advisor/interpreter.

โข
โข

That this case be sent back down the line and allow deficiencies to be corrected.
That the case begins anew.

The Petitioner has been denied the relationship and love of his two children since February 5,
2014. The Petitioner is desperately seeking a path back to his children. That is all and filing
the complaint in the district court was the first step.

The petition for a Writ of Certiorari should be granted.

Respectfully submitted,

May 20, 2021

